FAA HAS OPPORTUNITIES TO REDUCE ACADEMY
  TRAINING TIME AND COSTS BY INCREASING
     EDUCATIONAL REQUIREMENTS FOR
  NEWLY HIRED AIR TRAFFIC CONTROLLERS
        Federal Aviation Administration
          Report Number: AV-2006-021
         Date Issued: December 7, 2005
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA Has Opportunities To Reduce                    Date:    December 7, 2005
           Academy Training Time and Costs by Increasing
           Educational Requirements for Newly Hired Air
           Traffic Controllers
           AV-2006-021
  From:                                                            Reply to
           David A. Dobbs                                          Attn. of:   JA-10
           Assistant Inspector General for Aviation and
            Special Program Audits

    To:    Federal Aviation Administrator

           This report presents the results of our audit of the Federal Aviation Administration’s
           (FAA) training process for newly hired air traffic controllers. The objective of our
           audit was to determine if FAA has considered alternative approaches that could
           expedite the training process and reduce costs associated with training new
           controllers. Our audit focused on training provided at the FAA Academy and was
           conducted from April through July 2005. The scope of our audit and the
           methodology we used in conducting it can be found in Exhibit A. The locations we
           contacted or visited can be found in Exhibit B.


           BACKGROUND
           Attrition in FAA’s air traffic controller workforce is expected to rise sharply in
           upcoming years as controllers hired after the 1981 Professional Air Traffic
           Controllers Organization controllers’ strike become eligible for retirement. FAA
           currently estimates that it will need to hire and train approximately 12,500 new
           controllers over the next 10 years. The training process to become a Certified
           Professional Controller is extensive. The first phase is usually initial qualification
           training at the FAA Academy in Oklahoma City. Initial qualification training at the
           Academy consists primarily of academic and simulation training.

           Classroom instruction includes training on general aviation topics such as
           dissemination of weather information, traffic separation, and visual operations.
           Simulation training is an intensive training process where students practice complex
                                                                                       2


scenarios and become familiar with FAA-specific operations and equipment. As
shown in Table 1, the FAA Academy currently allocates the equivalent of
approximately 37 class days for initial terminal training and 53 days for initial
en route training. Fourteen classroom days (38 percent) are used to teach academics
in the terminal option and 16 days (30 percent) in the en route option. The
remaining days are used primarily for simulation training.


                       Table 1. FAA Academy Training

                                       Terminal Option          En Route Option
                                       Days    Percent         Days     Percent
  Academic Training                      14        38%          16          30%
  Simulation Training                    21        57%          36          68%
  Performance Verification Testing        2         5%           1           2%
  Total                                  37                     53
  Source: FAA Academy, May 2005

A performance verification test is administered at the end of training. Students who
fail the test are provided additional training and given one more opportunity to
demonstrate their skills. Students who pass the test report to their assigned facility
to begin on-the-job training (OJT). OJT consists of a combination of training on
live air traffic with an experienced controller, as well as classroom and simulation
training specifically tailored to the individual facility. OJT is the longest part of the
training process and currently can take from 8 months to 3 years in the terminal
environment and from 3 to 5 years in the en route environment.


RESULTS IN BRIEF
During our audit, we observed an opportunity for FAA to reduce the time and costs
associated with training new air traffic controllers while maintaining the high
quality and standards of those services. Specifically, we found that FAA could
reduce new controller training time and costs by identifying specific coursework
conducted at the FAA Academy that could be discontinued as part of Government-
provided training and instead making the coursework a prerequisite to employment
as an FAA controller. For example, a portion of initial qualification training at the
Academy includes classroom instruction on general aviation topics, such as the
dissemination of weather information, traffic separation, and visual operations.
Those topics are also provided as part of existing aviation programs at colleges and
universities.
                                                                                     3


If those general courses were a prerequisite to employment as an FAA air traffic
controller, the Academy could concentrate its resources on providing training that
focuses more on FAA-specific operations and equipment. This change would
ensure that new controllers begin work with a solid background in general aviation
principles and still receive standardized training on FAA procedures so that they are
sufficiently prepared to start OJT at their assigned facility. We found several
compelling reasons for considering this change.

• Colleges and Universities Offer Courses Similar to Those Taught at the
  FAA Academy. At five colleges and universities we visited, we found that
  many classroom subjects currently taught at the FAA Academy are also taught at
  the schools. For example, the FAA Academy provides academic instruction on
  subjects such as aircraft separation for the en route option. This topic was
  included in the curriculum in all the aviation programs we reviewed. In total,
  35 of 38 subjects currently taught by the FAA Academy were also included in
  the aviation program of one or more of the schools we visited. Exhibit C
  provides the details of our analysis.

• There Are Numerous Schools That Already Have Well-Established Aviation
  Programs. We found that there are numerous schools throughout the country
  that already have well-established aviation programs. In fact, the FAA Academy
  currently uses instructors from the University of Oklahoma to augment its own
  staff of instructors when needed to meet its training mission. At one university
  we visited (the University of North Dakota), the Norwegian government
  previously contracted with the university to provide all initial training for its new
  air traffic controllers. After completing training, those controllers went directly
  to their assigned facility to begin OJT.

   We also met with officials from the University Aviation Association and the
   Council on Aviation Accreditation. These organizations play pivotal roles in the
   advancement of degree-granting aviation programs at over 100 colleges and
   universities. The officials stated that they do not currently have a formal
   relationship with the FAA, but they are hoping to establish one. Exhibit D
   provides the current listing of schools belonging to the University Aviation
   Association.

• Colleges and Universities We Visited Were Interested in Expanding Their
  Curriculum. At all the schools we visited, school officials were interested in
  expanding their course offerings to include academic coursework currently
  taught at the FAA Academy. This training would be taken at the expense of
  students, not the Government. For example, school officials at the Metropolitan
  State College of Denver developed a proposal for a 4-year curriculum that grants
  a bachelor’s degree in air traffic control. According to school officials, they
                                                                                                                        4


      contacted FAA in May 2005 to request information on expanding their program,
      but as of July 2005 FAA had not responded to their request. According to FAA,
      on August 17, 2005, an e-mail message was sent to the school that included the
      statement of work and criteria used to expand the Agency’s Collegiate Training
      Initiative (CTI) program.

• Controller Candidates Should Be Expected To Meet Some Educational
  Requirements. In our opinion, it is not unreasonable to require new controllers
  to have a minimum level of air traffic education as a prerequisite to employment,
  considering fully certified FAA air traffic controllers earned an average base
  salary of $117,000 in fiscal year (FY) 2005. Many professional positions within
  the Federal Government require a minimal level of education. For example,
  applicants for positions such as foresters, physical therapists, librarians, and
  social workers all must have a degree in their area of expertise as a prerequisite
  to employment. Exhibit E contains a sample of Federal positions and the
  educational requirements that must be met to qualify as an applicant for those
  positions.

• Changing Educational Requirements Could Save FAA a Minimum of
  $16 Million. By identifying specific subjects currently taught at the FAA
  Academy and making those courses a prerequisite to employment as an air
  traffic controller, FAA could save between $16.8 million and $21.3 million over
  the next 9 years (2006 to 2014).1 Those savings could be substantially higher
  should FAA determine that other portions of Academy training (such as
  simulation training) could likewise be converted in the future. Exhibit A shows
  the methodology we used to estimate this savings.

FAA has embarked on a similar concept in the past. In the early 1990s, FAA
established the CTI program, which still exists today. The CTI program is a non-
funded partnership with 13 colleges and universities that provides FAA with a
hiring pool of graduates who possess a broad-based knowledge of the air traffic
management system and the aviation industry. If hired by FAA, however, graduates
of the program must still attend the FAA Academy and neither the program nor the
coursework is required as a prerequisite to employment with FAA as an air traffic
controller.

We recognize that changing the requirements for new air traffic controllers would
necessitate a paradigm change on the part of the FAA Academy. In the past, the
FAA Academy was the sole “manager” of all phases of initial training for new
controllers. Changing the coursework requirements for new controllers would

1
    We revised the estimated savings from our draft report to reflect the estimated savings used by FAA in its response to
    our draft.
                                                                                   5


require the Academy to assume responsibility for establishing, communicating, and
overseeing the curriculum provided by the academic community in addition to
providing FAA-specific training. However, as FAA begins hiring and training the
next generation of air traffic controllers, FAA needs to consider other ways of doing
business.

In our opinion, this change could provide FAA with a larger pool of candidates that
are well-versed in the general academics of aviation and air traffic control, while
allowing the FAA Academy to focus its resources on standardized training on FAA
policies, procedures, and equipment. With plans to hire 12,500 new controllers over
the next 10 years, we believe FAA must carefully evaluate any and all opportunities
to reduce the time and costs of training new controllers while maintaining the
quality and standards of those services.

We are recommending that FAA identify specific coursework conducted at the FAA
Academy and determine if those courses could be made a prerequisite to
employment as an air traffic controller. We are also recommending that FAA
include that determination in the next update to FAA’s Controller Workforce Plan,
which is due at the beginning of the FY 2007 appropriations cycle. A complete list
of our recommendations can be found on page 9.


Agency Comments and Office of Inspector General Response
On August 17, 2005, we provided FAA with a draft of our report. On
October 17, 2005, FAA gave us its formal response to our draft, which is contained
in its entirety in the Appendix. FAA concurred with our recommendations but had
comments regarding the estimated savings. According to FAA, while the
percentage of time spent in academic and simulator training used in our report is
correct, the same percentage does not apply directly to the costs. This is because,
according to FAA, simulator training is more expensive to provide than academic
training. Accordingly we used FAA’s estimates in this report. Nevertheless, the
Agency agreed that the “potential savings are significant.” FAA estimates that total
savings could be between $16.8 million and $21.3 million over 9 years.

Additionally, while FAA concurred with our recommendation to determine if
certain coursework could be discontinued as part of FAA-provided training, it did
not agree to report the results of that determination in the next update of the
Agency’s Controller Workforce Plan. According to FAA, the next update of the
plan is due in December 2005 and, given the time required to complete the
necessary staff work, it could not meet that deadline. Instead, FAA proposes
reporting its conclusions in the December 2006 update of the Controller Workforce
Plan, or sooner if completed.
                                                                                 6


We agree that a December 2005 deadline is unrealistic but do not agree that an
additional year of staff work is necessary. By December 2006, FAA will already be
2 years into its 10-year plan for hiring and training 12,500 new controllers, and
FAA’s assessment would be needed sooner than a year from today for it to be of
meaningful utility to the Agency’s stakeholders. Accordingly, we are requesting
that FAA reconsider its timeframes for reporting its determination and provide us
with new milestones.


OBSERVATIONS

FAA Has Taken Steps To Reduce the Time and Costs To Train New Air
Traffic Controllers but Needs To Consider Additional Opportunities
In December 2004, FAA published its “10-Year Strategy for the Air Traffic Control
Workforce.” This workforce plan details FAA’s strategy for managing the hiring
and training of approximately 12,500 new controllers from FY 2005 to FY 2014.
The plan also includes measures to reduce training costs. For example, in an effort
to reduce costs of initial qualification training at the FAA Academy, FAA plans to
convert the initial 5-week Air Traffic Basics course to a web-based course.
According to the workforce plan, FAA estimates that about 30 percent of all new
hires would have been required to attend this course at the Academy. Changing this
course to web-based instruction that controller candidates would take individually
instead of at the Academy should reduce the costs associated with that portion of
training.

FAA also changed the way newly hired controllers (without prior air traffic
experience) are compensated while attending the FAA Academy. In the past, those
trainees attending initial qualification training were reimbursed for all expenses
(e.g., travel costs and room and board) and were paid annual salaries of at least
$25,000. FAA now hires those controllers as temporary excepted appointments (not
to exceed 6 months) and pays salaries commensurate with an entry-level position
(about $18,000 a year). Additionally, while FAA still pays for students’ travel
costs, it has eliminated reimbursement for room and board.


Components of FAA’s Academy Training for New Air Traffic
Controllers Are Similar to Subjects Taught at Colleges and Universities
During our audit, we visited five colleges and universities (Auburn University,
Metropolitan State College of Denver, University of North Dakota, Community
College of Beaver County, and Embry-Riddle University). Three of the schools are
CTI schools and the remaining two have well-established aviation education
programs. We visited those schools because they provide specific course work in
                                                                                                                   7


air traffic control and to compare course offerings and simulation technology at
these schools with training provided at the FAA Academy.

We found that a number of subjects taught at the FAA Academy are included in the
aviation curriculum at the five schools we visited (see Exhibit C). For example, the
FAA Academy provides academic instruction on subjects such as aircraft separation
for the en route option. Our analysis showed that this topic was included in the
curriculum in all the aviation programs we reviewed. In total, 35 of 38 subjects that
are currently taught by the FAA Academy were also included in the aviation
program at one or more of the schools we visited.

At one school, the training actually exceeded coursework taught at the Academy.
At the Community College of Beaver County, we found students were provided
experience controlling live air traffic in a terminal environment. In some cases,
these students passed an FAA examination and earned a Control Tower Operator
certificate, which authorizes them to control air traffic at a tower. Although these
graduates are certified to control live air traffic, FAA managers stated that under the
current hiring process these graduates must still attend 37 class days of terminal
training at the FAA Academy.

At another university we visited (the University of North Dakota), the Norwegian
government previously contracted with the university to provide all initial training
for its new air traffic controllers. Upon completion of training, these controllers
went directly to their assigned facility for on-the-job training.2


Colleges and Universities Are Interested in Providing Initial Air Traffic
Controller Academic Training
At all the schools we visited, we found that school officials were interested in
expanding their course offerings to include academic coursework currently taught at
the FAA Academy. For example, school officials at the Metropolitan State College
of Denver developed a proposal for a 4-year curriculum leading to a bachelor’s
degree in air traffic control. According to school officials, they contacted FAA in
May 2005 to request information on expanding their program, but as of July 2005
FAA had not responded to their request. According to FAA, on August 17, 2005,
an e-mail message was sent to the school that included the statement of work and
criteria used to expand the Agency’s CTI program.

We also met with officials from the University Aviation Association and the
Council on Aviation Accreditation. These organizations play pivotal roles in the
advancement of degree-granting aviation programs at over 100 colleges and

2
    The school no longer provides this training for the Norwegian government because Norway formed a partnership with
    Denmark and Sweden to conduct training within those countries.
                                                                                  8


universities (see Exhibit D). The officials stated that while they do not have a
formal relationship with the FAA, they are hoping to establish one.

We also asked FAA if they provided any guidance to schools on curriculum taught
at the FAA Academy. FAA managers explained that only CTI schools were given
details on the Air Traffic Basics course and that no information was released on the
curriculum for either the en route or terminal options.


FAA Needs To Consider Other Opportunities To Reduce the Time and
Costs To Train New Air Traffic Controllers
With plans to hire 12,500 new controllers over the next 10 years, FAA must
consider all opportunities to reduce the time and costs to train new air traffic
controllers. One such opportunity would be for FAA to increase the educational
requirements for new controllers and discontinue some classroom training currently
taught at the FAA Academy at Government expense. Based on our sample of five
universities and colleges, we found that:

   • schools already provide a substantial portion of classroom training currently
     taught at the FAA Academy;
   • there are numerous schools that have certified aviation programs; and
   • schools are willing to alter their curricula to meet FAA requirements, with
     coursework costs borne by the student and not the Government.

In our opinion, it is not unreasonable to require new controllers to have a minimum
level of air traffic education as a prerequisite to employment, considering fully
certified FAA air traffic controllers earned an average base salary of $117,000 in
FY 2005. Many professional positions within the Federal Government require a
minimal level of education. For example, foresters, physical therapists, and social
workers all must have a degree in their area of expertise as a prerequisite to
employment. Exhibit E contains a sample of Federal positions and the educational
requirements that must be met to qualify as an applicant for those positions.

We are recommending that FAA identify specific coursework at the FAA Academy
that is currently provided or could be provided by colleges and universities. FAA
then needs to determine if those courses could be discontinued as part of FAA-
provided training and instead made a prerequisite to employment as an air traffic
controller. We are further recommending that FAA include its determination in the
next update to its Controller Workforce Plan, which is due at the beginning of the
FY 2007 appropriations cycle.

FAA has embarked on a similar concept in the past. In the early 1990s, FAA
established the CTI program, which still exists today. The CTI program is a non-
                                                                                   9


funded partnership with 13 colleges and universities that provides FAA with a
hiring pool of graduates who possess a broad-based knowledge of the air traffic
management system and the aviation industry. Graduates of the program hired by
FAA, however, must still attend the FAA Academy and neither the program nor the
coursework is mandatory or required as a prerequisite to employment with FAA as
an air traffic controller.

We recognize that changing the requirements for new air traffic controllers would
necessitate a paradigm change on the part of the FAA Academy. In the past, the
FAA Academy was the sole “manager” of all phases of initial training for new
controllers. Changing the coursework requirements for new controllers would
require the Academy to assume responsibility for establishing, communicating, and
overseeing the curriculum provided by the academic community in addition to
providing FAA-specific training. However, as FAA begins hiring and training the
next generation of air traffic controllers, FAA needs to consider other ways of doing
business.

By increasing the educational requirements for new controllers and discontinuing a
portion of classroom training at the FAA Academy, FAA could save between
$16.8 million and $21.3 million over the next 9 years (FY 2006 to FY 2014). Those
savings could be substantially higher should FAA determine that other portions of
Academy training, such as simulation training, could likewise be made a
prerequisite to employment for new air traffic controllers.


RECOMMENDATIONS
We recommend that the Federal Aviation Administrator:

   1. Identify specific coursework taught at the FAA Academy as part of new
      controller training that is currently provided or could be provided by colleges
      and universities.

   2. Determine if those courses could be discontinued as part of FAA-provided
      training and instead made a prerequisite to employment as an air traffic
      controller with the FAA.

   3. Report the results of that determination to the Secretary, Congress, and the
      Office of Management and Budget as part of the next update to the Agency’s
      Controller Workforce Plan, which is due at the beginning of the FY 2007
      appropriations cycle.
                                                                                 10


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
On August 17, 2005, we provided FAA with a draft of our report. On
October 17, 2005, FAA gave us its formal response to our draft, which is contained
in its entirety in the Appendix. FAA concurred with our recommendations but had
comments regarding the estimated savings. According to FAA, while the
percentage of time spent in academic and simulator training used in our report is
correct, the same percentage does not apply directly to the costs. This is because,
according to FAA, simulator training is more expensive to provide than academic
training. Accordingly, we used FAA’s estimates in this report. Nevertheless, the
Agency agreed that the “potential savings are significant.” FAA estimates that total
savings could be between $16.8 million and $21.3 million over 9 years.

While FAA concurred with our recommendation to determine if certain coursework
could be discontinued as part of FAA-provided training, it did not agree to report
the results of that determination in the next update of the Agency’s Controller
Workforce Plan. According to FAA, the next update of the plan is due in December
2005 and, given the time required to complete the necessary staff work, it could not
meet that deadline. Instead, FAA proposes reporting its conclusions in the
December 2006 update of the Controller Workforce Plan, or sooner if completed.

We agree that a December 2005 deadline is unrealistic but do not agree that an
additional year of staff work is necessary. By December 2006, FAA will already be
2 years into its 10-year plan for hiring and training 12,500 new controllers. FAA’s
assessment is needed sooner than a year from today for it to be of meaningful use to
the Agency’s stakeholders. Accordingly, we are requesting that FAA reconsider its
timeframes for reporting its determination and provide us with new milestones.

In its response, FAA also makes several comments about issues that we would like
to clarify. First, FAA states that our report does not address the possibility that
FAA will face oversight costs if colleges and universities are encouraged to provide
more academic training. On page 4 of the report, we state that “Changing the
coursework requirements for new controllers would require the Academy to assume
responsibility for establishing, communicating, and overseeing the curriculum
provided by the academic community in addition to providing FAA-specific
training.” We recognize that there would be costs associated with oversight
activities but expect that they would be minimal in comparison to the costs of
providing the training directly.
                                                                                      11


    Second, FAA states that the Agency has already reduced controller training time
    through the CTI program, which we also agree with and cite in our report. On
    page 4, we state:

          FAA has embarked on a similar concept in the past. In the early
          1990s, FAA established the CTI program, which still exists today.
          The CTI program is a non-funded partnership with 13 colleges and
          universities that provides FAA with a hiring pool of graduates who
          possess a broad-based knowledge of the air traffic management
          system and the aviation industry.

    However, we also point out that if hired by FAA, graduates of the program must
    still attend the FAA Academy, and neither the program nor the coursework is
    required as a prerequisite to employment with FAA as an air traffic controller.

    Third, FAA states that our report attempts to connect the University of Oklahoma’s
    Department of Aviation with the air traffic instructional services contract currently
    awarded to the University and that the entities are unrelated. According to FAA, the
    University was awarded the contract to provide instructors to supplement FAA
    staffing. We find this comment perplexing as our intent in the report was to simply
    demonstrate that FAA already uses a university to supplement its own instructors,
    which it does.


    ACTIONS REQUIRED
    FAA’s planned actions are responsive to all of the report’s recommendations.
    However, as stated in our response, we believe the target completion dates need to
    be revised. In accordance with Department of Transportation Order 8000.1C, we
    are requesting that FAA provide us with new milestones for completion of its
    determination within 30 calendar days.

    We appreciate the courtesies and cooperation of FAA representatives during this
    audit. If you have any questions concerning this report, please call me at
    (202) 366-0500 or Daniel Raville, the Program Director, at (202) 366-1405.

                                             #

cc: FAA Deputy Administrator
    FAA Chief of Staff
    Anthony Williams, ABU-100
EXHIBIT A. SCOPE AND METHODOLOGY
The audit was conducted in accordance with Generally Accepted Government
Auditing Standards prescribed by the Comptroller General of the United States and
included such tests as we considered necessary to provide reasonable assurance of
detecting abuse or illegal acts. The observations contained in this report were
initially identified during our audit “Opportunities To Improve FAA’s Process for
Placing and Training Air Traffic Controllers in Light of Pending Retirements”
(AV-2004-060, June 2, 2004) and were further developed during this review. We
used information collected during our initial and current audit efforts in preparing
this report.

During the initial review, we also visited the Minneapolis Community & Technical
College in Minneapolis, Minnesota. We did not include this school in our analysis
because it is currently in the process of changing its program. In the past, graduates
from this school went directly to a facility to begin on-the-job training. However,
because they are not receiving any congressional funding, the school has elected to
apply for the CTI program. Its new program is currently in the approval process
with FAA.

To determine whether FAA has considered alternative approaches that could
expedite the training process and reduce costs associated with training new
controllers, we interviewed officials from the FAA Academy and Headquarters. We
also contacted officials from five universities and colleges and two academic
associations (see Exhibit B).

We compared course offerings at five colleges and universities with training
provided at the FAA Academy (see Exhibit C). To conduct the comparison, we
obtained detailed course materials, syllabi, and course outlines and compared them
with subjects taught at the FAA Academy. We did not conduct a comparison of
time expended teaching a topic.

We also analyzed historical cost data and course information provided by FAA to
identify potential cost savings. According to officials at the FAA Academy, the cost
of providing option-specific training was about $12,750 for the en route and
$10,267 for the terminal option for each student.

We also reviewed course information at the FAA Academy and identified the
percentage of time spent on academic instruction for initial training in the en route
(30 percent) and terminal (38 percent) options.

We then multiplied the percentage of time spent teaching academics with the cost of
providing the training and estimated that FAA incurred costs for teaching academics


Exhibit A. Scope and Methodology
                                                                                 13


of about $3,825 (30 percent x $12,750) for the en route option and
$3,901 (38 percent x $10,267) for the terminal option. According to FAA officials,
all new hires in the en route option will go to the Academy and, currently, only
about half of those in the terminal option.

We then reviewed FAA’s 10-year hiring plan and supporting documents to
determine how many controllers FAA planned to hire over the next 9 years for each
option. Finally, we multiplied the anticipated number of new hires for each option
by the cost of providing academic training ($3,825 or $3,901) over 9 years to obtain
potential cost savings of between $35 million and $47 million. For the terminal
option, we used a range of between 50 and 100 percent of new hires who would
attend the Academy (see Tables 2 and 3).


          Table 2. Potential Cost Savings: En Route Option
Fiscal    FAA 10-        Estimated Number of       Cost of Training    Potential
Year     Year Hiring      Students Attending         Devoted to       Cost Savings
            Plan              Academics              Academics
                          (100 percent of new       (30 percent x
                                 hires)               $12,750)
 2006       1,129               1,129                   $3,825         $4,318,425
 2007         720                 720                   $3,825         $2,754,000
 2008         576                 576                   $3,825         $2,203,200
 2009         624                 624                   $3,825         $2,386,800
 2010         656                 656                   $3,825         $2,509,200
 2011         704                 704                   $3,825         $2,692,800
 2012         624                 624                   $3,825         $2,386,800
 2013         640                 640                   $3,825         $2,448,000
 2014         656                 656                   $3,825         $2,509,200
 Total                                                                $24,208,425




Exhibit A. Scope and Methodology
                                                                                 14




          Table 3. Potential Cost Savings: Terminal Option
Fiscal      FAA          Estimated Number of       Cost of Training    Potential
Year      10-Year         Students Attending         Devoted to       Cost Savings
         Hiring Plan           Academics             Academics
                       (50 to 100 percent of new    (38 percent x
                                 hires)               $10,267)
 2006        120                60 to 120               $3,901         $234,060 to
                                                                         $468,120
 2007        528              264 to 528                $3,901        $1,029,864 to
                                                                        $2,059,728
 2008        528              264 to 528                $3,901        $1,029,864 to
                                                                        $2,059,728
 2009        528              264 to 528                $3,901        $1,029,864 to
                                                                        $2,059,728
 2010        756              378 to 756                $3,901        $1,474,578 to
                                                                        $2,949,156
 2011        804              402 to 804                $3,901        $1,568,202 to
                                                                        $3,136,404
 2012        864              432 to 864                $3,901        $1,685,232 to
                                                                        $3,370,464
 2013        792              396 to 792                $3,901        $1,544,796 to
                                                                        $3,089,592
 2014        816              408 to 816                $3,901        $1,591,608 to
                                                                        $3,183,216
 Total                                                                 $11,188,068
                                                                            to
                                                                       $22,376,136

FAA agreed with the percentages of time spent in academic and simulator training
but did not agree that the same percentage applies directly to the costs (30 percent
for terminal and 38 percent for en route). Instead, FAA estimated that the academic
portion of Academy training represents about 14.5 percent of the total costs for the
terminal option and about 15.5 percent for the en route option. Using those
percentages, FAA estimates savings of between $4,258,980 and $8,517,960 for the
terminal option and $12,518,762 for the en route option. Over 9 years, FAA
estimates the total savings would be between $16.8 million and $21.3 million. We
used FAA’s estimated savings in this report.




Exhibit A. Scope and Methodology
                                                    15




EXHIBIT B. ACTIVITIES VISITED OR CONTACTED

FAA Facilities
  • Mike Monroney Aeronautical Center—FAA Academy
  • FAA Headquarters

Colleges and Universities
  •   Auburn University
  •   Metropolitan State College of Denver
  •   University of North Dakota
  •   Community College of Beaver County
  •   Embry-Riddle University

Academic Associations
  • University Aviation Association
  • Council on Aviation Accreditation

Other Associations
  • National Air Traffic Controllers Association




Exhibit B. Activities Visited or Contacted
                                                                                         16




EXHIBIT C. COMPARISON OF SUBJECTS TAUGHT AT FIVE
COLLEGES AND UNIVERSITIES WITH TRAINING PROVIDED AT
THE FAA ACADEMY FOR NEW AIR TRAFFIC CONTROLLERS
   Terminal           FAA      Auburn      Metropolitan     Embry-      University   Community
   Academic         Academy   University   State College    Riddle       of North     College of
   Subjects                                 of Denver      University     Dakota       Beaver
                                                                                       County

Human Factors         X                         X                           X            X
Terminal
Controller            X                                        X            X            X
General Control       X
Position Relief
Briefing              X                                                                  X
Tower Equipment       X                         X              X            X            X
Strip Marking         X           X             X              X            X            X
Flight Data
Input/Output          X           X                                                      X
NWS Tower
Visibility
Certification         X
Disseminating
Weather               X                         X              X            X            X
Automated
Surface
Observation
System                X
Wind Shear and
Low Level Wind
Shear Alert
System                X                                                     X
Automatic
Terminal
Information
Service               X                         X              X            X
Clearance
Delivery and ATC
Clearances            X           X             X              X            X            X
Wake Turbulence
and Separation
Rules                 X           X             X              X            X            X
Ground Control
Duties and
Responsibilities      X           X                            X            X            X
Taxi and Ground
Movement
Procedures            X                         X              X            X            X
Airport
Conditions, Uses,
and Lighting          X                         X              X            X            X

Exhibit C. Comparison of Subjects Taught at Five Colleges and
Universities With Training Provided at the FAA Academy for New Air
Traffic Controllers
                                                                                          17


   En Route            FAA      Auburn      Metropolitan     Embry-      University   Community
   Academic          Academy   University   State College    Riddle       of North     College of
   Subjects                                  of Denver      University     Dakota       Beaver
                                                                                        County
Runway
Incursions             X           X                            X            X            X
Local Control
Duties and
Responsibilities       X           X                            X            X            X
Visual Flight
Rules, Arrivals        X                                        X            X            X
Visual Flight
Rules, Departures      X                                        X            X            X
Instrument Flight
Rules, Arrivals
and Departures         X                                        X            X            X
Visual Operations      X                                        X            X            X
Radio and
Interphone
Procedures             X                         X              X            X            X
Flight Progress
Strips                 X           X             X              X            X            X
Recording
Clearances and
Control
Information            X                         X                           X            X
Forward Flight
Plan and Control
Information            X                         X                          X             X
General Control
and Board
Management             X
Instrument Flight
Rules, Clearance,
and Route
Assignments            X           X             X                                        X
Departure
Procedures             X                         X                                        X
Altimeter Setting
and Altitude
Assignment
Requirements           X                         X              X            X            X
Holding
Procedures             X           X             X                           X
Arrival/Approach
Procedures             X           X             X              X            X            X
Letters of
Agreement              X                         X              X            X
Vertical
Separation             X           X             X              X            X            X
Lateral Separation     X           X             X              X            X            X
Longitudinal
Separation             X           X             X              X            X            X

Exhibit C. Comparison of Subjects Taught at Five Colleges and
Universities With Training Provided at the FAA Academy for New Air
Traffic Controllers
                                                                                          18


    En Route           FAA      Auburn      Metropolitan     Embry-      University   Community
    Academic         Academy   University   State College    Riddle       of North     College of
    Subjects                                 of Denver      University     Dakota       Beaver
                                                                                        County
Initial Separation
of Arrivals and
Departures             X           X             X              X            X            X

To conduct this comparison, we obtained detailed course materials, syllabi, and
course outlines and compared them with subjects taught at the FAA Academy. We
did not conduct a comparison of time spent teaching a topic.




Exhibit C. Comparison of Subjects Taught at Five Colleges and
Universities With Training Provided at the FAA Academy for New Air
Traffic Controllers
                                                                                 19




EXHIBIT D. LIST OF UNIVERSITY AVIATION ASSOCIATION
SCHOOLS IN THE UNITED STATES
                   School                             City               State
Auburn University                              Auburn           Alabama
University of Alaska—Anchorage                 Anchorage        Alaska
Arizona State University                       Mesa             Arizona
Embry-Riddle Aeronautical University           Prescott         Arizona
Henderson State University                     Arkadelphia      Arkansas
Northwest Arkansas Community College           Bentonville      Arkansas
Mt. San Antonia College                        Walnut           California
San Jose University                            San Jose         California
Aims Community College                         Greeley          Colorado
Metropolitan State College of Denver           Denver           Colorado
Naugatuck Valley Community College             Waterbury        Connecticut
Delaware State University                      Dover            Delaware
Broward Community College                      Pembroke Pines   Florida
Embry-Riddle Aeronautical University           Daytona Beach    Florida
Florida Community College                      Jacksonville     Florida
Florida Institute of Technology                Melbourne        Florida
Florida Memorial College                       Miami            Florida
Jacksonville University                        Jacksonville     Florida
Lynn University                                Boca Raton       Florida
Miami-Dade Community College                   Homestead        Florida
Clayton College and State University           Morrow           Georgia
Georgia Aviation Technical College             Eastman          Georgia
Georgia State University                       Atlanta          Georgia
Honolulu Community College                     Honolulu         Hawaii
Lewis University                               Romeoville       Illinois
Southern Illinois University—Carbondale        Carbondale       Illinois
University of Illinois—Institute of Aviation   Savoy            Illinois
Indiana State University                       Terra Haute      Indiana
Purdue University                              West Lafayette   Indiana
Iowa Lakes Community College                   Estherville      Iowa
University of Dubuque                          Dubuque          Iowa
Kansas State University—Salina                 Salina           Kansas
Eastern Kentucky University                    Richmond         Kentucky
Louisiana Tech University                      Ruston           Louisiana
The University of Louisiana at Monroe          Monroe           Louisiana
Community College of Baltimore County          Baltimore        Maryland
University of Maryland Eastern Shore           Princess Anne    Maryland
Bridgewater State College                      Bridgewater      Massachusetts
North Shore Community College                  Danvers          Massachusetts

Exhibit D. List of University Aviation Association Schools in the
United States
                                                                               20




                  School                          City                State
Andrews University Airpark                  Berrien Springs   Michigan
Eastern Michigan University                 Ypsilanti         Michigan
Western Michigan University                 Battle Creek      Michigan
Academy College                             Bloomington       Minnesota
Minnesota State University—Mankato          Mankato           Minnesota
St. Cloud State University                  St. Cloud         Minnesota
Delta State University                      Cleveland         Mississippi
Central Missouri State University           Warrensburg       Missouri
Parks College of Engineering and Aviation   Saint Louis       Missouri
Rocky Mountain College                      Billings          Montana
University of Nebraska—Kearney              Kearney           Nebraska
University of Nebraska—Omaha                Omaha             Nebraska
Community College of Southern Nevada        Boulder City      Nevada
Daniel Webster College                      Nashua            New Hampshire
Mercer County Community College             Trenton           New Jersey
San Juan College                            Farmington        New Mexico
CUNY Aviation Institute                     Jamaica           New York
Dowling College                             Shirley           New York
Vaughn College of Aeronautics and
Technology                                  Flushing          New York
Elizabeth City State University             Elizabeth City    North Carolina
Lenoir Community College                    Kinston           North Carolina
University of North Dakota                  Grand Forks       North Dakota
Bowling Green State University              Bowling Green     Ohio
Kent State University                       Kent              Ohio
Ohio University                             Albany            Ohio
The Ohio State University                   Columbus          Ohio
University of Cincinnati—Clermont College   Batavia           Ohio
Southeastern Oklahoma State University      Durant            Oklahoma
Tulsa Community College                     Tulsa             Oklahoma
University of Oklahoma                      Norman            Oklahoma
Community College of Beaver County          Beaver Falls      Pennsylvania
Lehigh Carbon Community College             Allentown         Pennsylvania
Inter American University of Puerto Rico    San Juan          Puerto Rico
South Dakota State University               Brookings         South Dakota
Middle Tennessee State University           Murfreesboro      Tennessee
Tennessee State University                  Nashville         Tennessee
Baylor University                           Waco              Texas
Central Texas College                       Killeen           Texas
LeTourneau University                       Longview          Texas
Mountain View College                       Dallas            Texas
San Jacinto College                         Pasadena          Texas

Exhibit D. List of University Aviation Association Schools in the
United States
                                                                       21


                   School                     City            State
Tarleton State University             Killeen          Texas
Texas Southern University             Houston          Texas
Texas State Technical College—Waco    Waco             Texas
Salt Lake Community College           Salt Lake City   Utah
Utah State University                 Logan            Utah
Utah Valley State College             Orem             Utah
Westminster College                   Salt Lake City   Utah
Averett University                    Danville         Virginia
Hampton University                    Hampton          Virginia
Liberty University                    Lynchburg        Virginia
South Seattle Community College       Seattle          Washington
Walla Walla College                   College Place    Washington
Fairmont State University             Bridgeport       West Virginia
Blackhawk Technical College           Janesville       Wisconsin
Fox Valley Technical College          Oshkosh          Wisconsin
Gateway Technical College             Kenosha          Wisconsin




Exhibit D. List of University Aviation Association Schools in the
United States
                                                                                                          22




EXHIBIT E. EXAMPLES OF EDUCATIONAL REQUIREMENTS FOR
A SAMPLE OF FEDERAL JOBS
  Job Title                                     Education Requirements
Accountant           Completion of a 4-year course at an accredited college or university leading
                     to at least a bachelor’s degree in accounting or in a related field that
                     included 24 semester hours of accounting.
Clinical Nurse       A degree or diploma from a professional nursing program approved by the
                     legally designated state accrediting agency. Must have active, current
                     registration as a professional nurse.
Contract             Completion of a 4-year course of study leading to a bachelor’s degree in
Specialist           any field or completion of at least 24 semester hours in any combination of
                     various majors.
Criminal             Bachelor’s degree with overall GPA of 2.95 or above.
Investigator
Editor               Master’s or equivalent graduate degree or 2 full years of progressively
                     higher level graduate education leading to a degree.
Electronics          Completion of a 4-year course of study leading to at least a bachelor’s
Engineer             degree in a school of engineering with at least one curriculum accredited by
                     the Accreditation Board for Engineering and Technology.
Forester             Successful completion of a 4-year course of study leading to a bachelor’s
                     degree with a major in forestry or a related subject that includes 30 semester
                     hours in any combination of biological, physical, or mathematical sciences
                     or engineering, of which at least 24 hours of course work is in forestry.
Information          Successful completion of at least 2 years of graduate education leading to a
Technology           master’s degree in a related field.
Specialist
Internal      Bachelor’s degree in any field that includes 30 semester hours of
Revenue Agent accounting.
Librarian     Successful completion of 2 years of higher level related graduate education
              or a master’s degree in library science or a related master’s degree.
Mathematical  A degree that includes 24 semester hours in mathematics and statistics.
Statistician
Physical      A bachelor’s degree in physical therapy or an equivalent certificate in
Therapist     physical therapy from an accredited college or university and completion of
              a physical therapy clinical practice program. Must have a license to
              practice physical therapy.
Social Worker Master’s Degree in Social Work from a school of social work accredited by
              the Council on Social Work Education. Must be licensed or certified at the
              master’s level to independently practice social work in a state.
Wildlife      Must possess a degree in biological science.
Biologist
Source: USAJOBS, the Office of Personnel Management’s official web site for employment with the Federal
Government (www.usajobs.opm.gov).


Exhibit E. Examples of Educational Requirements for a Sample of
Federal Jobs
                                                                                              23




           APPENDIX. MANAGEMENT COMMENTS


Subject:   INFORMATION: FAA's Response to the                      Date:    Oct 17 2005
           OIG's Draft Report: FAA Has Opportunities to
           Reduce Academy Training Costs by
           Increasing Educational Requirements for
           Newly Hired Air Traffic Controllers
  From:    Assistant Administrator for Financial Services       Reply to
                                                                Attn. of:
              and Chief Financial Officer

    To:    Assistant Inspector General for Aviation and
              Special Program Audits
           This document represents the Federal Aviation Administration’s (FAA) response to
           the subject Office of Inspector General’s (OIG) draft report presented to the FAA
           on August 17, 2005. We appreciate the cooperation provided by your staff over
           the past two years as they examined the hiring and training processes for air traffic
           controllers.

           We agree with your observation that the FAA faces a significant challenge to hire
           and train approximately 12,500 new controllers over the next ten years. To
           address this challenge, the FAA developed a comprehensive plan detailing our
           strategy and presented it to Congress in December 2004. Included in this plan are
           strategies to reduce the time and costs associated with training controllers. While
           the Air Traffic – Collegiate Training Initiative (AT-CTI) program is a valuable
           partner to achieve this goal, it is not our only strategy.

           In reviewing the data and observations in this report, we have determined that a
           number of assumptions were made to reach the level of potential cost savings
           stated in the report. The following general comments will address these
           assumptions followed by the agency’s response to each recommendation.

           Potential Cost Savings Overstated by at Least 53 Percent

           The report states that academic curriculum taught at the FAA Academy is currently
           taught at colleges and universities and could be made a prerequisite to
           employment as a controller. This section will discuss cost data and the viability of
           the report’s observations will be discussed in the next section.

           Over nine years, the report estimates savings of between $11,188,068 to
           $22,376,136 for Terminal and $24,208,425 for En Route. Combined, the report
           estimates a total projected savings of between $35 to $47 million over nine years.
           The report overstates the potential cost savings by $18.6 million to $25.5 million



           Appendix. Management Comments
                                                                                                               24


dollars (53 to 55 percent). Despite this, the FAA agrees that the potential savings
are significant.

Although the report accurately shows the percentage of time spent in academics,
the report assumes this same percentage represents the total cost to deliver that
portion of the course. It is the FAA’s determination that the percentage of time
spent in delivering academics is not the same as the percentage of cost of
delivering that portion of the course. Simulation portions of both courses require
more instructors and thus cost more to deliver. For example, the report indicates
the time spent in the academic portion of the En Route course is 30 percent of the
entire course. It then uses this percentage in Table 2 of the report to estimate
savings of approximately $24 million over nine years. However, while the
academic portion of En Route training represents 30 percent of the time to train at
the academy, the academic portion of the En Route course represents only 10.3
percent of the cost to deliver the course. Likewise, the academic portion of the
Terminal course represents only 7.4 percent of the cost to deliver the course and
not 38 percent.

Additionally, the report does not factor in the costs associated with the daily salary
paid to the students nor does it include the costs associated with ghost pilot
salaries. Although there are no ghost pilot costs associated with the academic
portion of the course, the costs associated with ghost pilot instruction would factor
into the overall percentage of cost savings. In order to accurately calculate the
overall cost to deliver the academic portion of the course, the total cost should
incorporate the daily student salary costs plus the total cost of course instruction.
The table below shows the percentage of time for each portion of the course and
the estimated percentage cost for that portion.

Table 1.   Percentage of Time and Cost for Terminal and En Route Courses



                                                          Terminal Option                 En Route Option


                                                  Days         Time        Cost    Days      Time       Cost

Academic Training                                   14         38%         7.4%     16        30%      10.3%
Simulation Training                                 21         57%         91.5%    36        68%      88.6%
Performance Verification Testing                     2          5%         1.1%     1         2%        1.1%
                     Total                          37                              53


Based on the true cost of delivering academics, we have re-calculated the
estimated savings from Tables 2 and 3 from the OIG’s report. The tables below
show a more accurate estimate of savings if the academic portions of the Terminal
and En Route courses were delivered outside of the Academy.




Appendix. Management Comments
                                                                                                        25


     Table 2. Adjusted Costs for Academic Training for the Terminal Option


                         STUDENT                               INSTRUCTOR
                        SALARIES                                  COSTS
                       ASSOCIATED                              ASSOCIATED                 ADJUSTED
              STUDENT      WITH                         CLASS      WITH                     PER
   COURSE     TERMINAL ACADEMIC         INSTRUCTOR     SIZE 16  ACADEMIC    ADJUSTED      STUDENT
BREAKDOWN: OPTION        TRAINING     TERMINAL OPTION STUDENTS TRAINING PERCENTAGES COSTS
                                                                          Student Time in
Academic Days    14   (14 days X $69)                     25                Academics
Total Class Days    37                   Total Instr. Days        307                      38%
                                         Average Instr. Salary
Salary Per Day      $69        $966      per Day                 $332
Instruction Costs                        Cost for Academics      $8,300     $8,300
                                         Cost for Instruction   $101,924
                                         Ghost Instr. Costs      $12,312
                                         Total Instruction Cost $114,236             Associated Costs
Per Student Cost               $966                                          $519         14.5%              $1,485



     Table 3.         Adjusted Costs for Academic Training for the En Route
     Option


                    STUDENT                                              INSTRUCTOR
                    SALARIES                                                COSTS
           STUDENT ASSOCIATED             INSTRUCTOR                     ASSOCIATED                 ADJUSTED
              EN      WITH                                        CLASS      WITH                     PER
  COURSE    ROUTE   ACADEMIC                   EN ROUTE          SIZE 16  ACADEMIC    ADJUSTED      STUDENT
BREAKDOWN: OPTION   TRAINING                     OPTION         STUDENTS TRAINING PERCENTAGES COSTS
                                                                                    Student Time in
Academic Days       16    (16 days X $69)                           46                Academics
Total Class Days    53                    Total Instr. Days         405                  30%
                                          Average Instr. Salary
Salary Per Day      $69        $1,104     per Day                  $304
Instruction Costs                       Cost for Academics     $13,984     $13,984
                                        Cost for Instruction   $123,120
                                        Ghost Instr. Costs      $12,960
                                        Total Instruction Cost $136,080              Associated Costs
Per Student Cost              $1,104                                        $874          15.5%          $1,978




     Appendix. Management Comments
                                                                    26


Table 4.     Estimated Terminal Cost Savings

Fiscal New Hires         Estimated        Portion of    Potential Cost
 Year According          Number of      Training Cost      Savings
          to              Students        Devoted to    (# of Students
       FAA’s 10-         Attending      Academics Per    Attending x
         Year           Academics          Student       Per Student
                       (50%-100% of        (14.5% x          Cost)
                         New Hires)        $10,267)
           HIRING
           PLAN
                                                         $89,100 to
2006         120         60 to 120             $1,485
                                                          $178,200
                                                        $392,040 to
2007         528        264 to 528             $1,485
                                                          $784,080
                                                        $392,040 to
2008         528        264 to 528             $1,485
                                                          $784,080
                                                        $392,040 to
2009         528        264 to 528             $1,485
                                                          $784,080
                                                        $561,330 to
2010         756        378 to 756             $1,485
                                                         $1,122,660
                                                        $596,970 to
2011         804        402 to 804             $1,485
                                                         $1,193,940
                                                        $641,520 to
2012         864        432 to 864             $1,485
                                                         $1,283,040
                                                        $588,060 to
2013         792        396 to 792             $1,485
                                                         $1,176,120
                                                        $605,880 to
2014         816        408 to 816             $1,485
                                                         $1,211,760
                                                        $4,258,980to
Total
                                                         $8,517,960




Appendix. Management Comments
                                                                                     27



Table 5.      Estimated En Route Cost Savings

Fisc    New Hires          Estimated            Portion of        Potential Cost
 al     According          Number of          Training Cost          Savings
Year         to            Students            Devoted to         (# of Students
        FAA’s 10-          Attending         Academics Per         Attending x
            Year          Academics          Student (15.5%        Per Student
        Hiring Plan      (100% of New           x $12,750)             Cost)
                             Hires)
2006       1,129             1,129                $1,978            $2,233,162
2007        720               720                 $1,978            $1,424,160
2008        576               576                 $1,978            $1,139,328
2009        624               624                 $1,978            $1,234,272
2010        656               656                 $1,978            $1,297,568
2011        704               704                 $1,978            $1,392,512
2012        624               624                 $1,978            $1,234,272
2013        640               640                 $1,978            $1,265,920
2014        656               656                 $1,978            $1,297,568
Total                                                               $12,518,762



Over nine years, the Terminal estimated savings is between $4,258,980 and
$8,517,960. The En Route estimated savings is $12,518,762. Combined, the
estimated savings for both Terminal and En Route is between $16.8 million to
$21.3 million over nine years; not $35 to $47 million as estimated in the report.

The report does not address the possibility the FAA will face oversight costs if
colleges and universities are encouraged to provide more academic training.
Potential savings could be partially offset by corresponding cost increases to the
FAA due the expanded oversight role. The FAA will be required to ensure
consistency and quality of expanded out-of-agency training programs, without
resorting to subsidizing private training or other measures that would reduce
efficiency and the potential for savings.

Discussion of the FAA Academy Training and Collegiate Curriculum

The report states that the FAA could reduce new controller training time and costs
by identifying specific coursework conducted at the FAA Academy that could be
discontinued as part of government provided training and instead made a



Appendix. Management Comments
                                                                                     28


prerequisite to employment as a controller. In fact, the FAA has done that through
the AT-CTI program.

Currently, controllers hired through the AT-CTI program by-pass the first five
weeks of training at the FAA Academy. The first five weeks of FAA Academy
training consist of air traffic “basics”, or the foundational academic knowledge
required of all new controllers regardless of what type of air traffic facility in which
they will work. While the OIG observed that this basic classroom instruction is
provided as a part of existing aviation programs at colleges and universities, we
found that colleges have a wide variety of coursework that may or may not meet
FAA requirements. This was evident during the evaluation of colleges during the
AT-CTI expansion process from the original five colleges to our current thirteen
colleges. To address these inconsistencies, the FAA provides the AT-CTI colleges
with the exact curriculum taught at the FAA Academy on an annual basis.


Other Comments

The report attempts to connect the University of Oklahoma’s (OU’s) Department of
Aviation with the air traffic instructional services contract currently awarded to OU.
The two entities are entirely unrelated. OU was awarded the contract to provide
instructors to supplement FAA staffing. They do that by hiring retired air traffic
controllers with recent operational experience. This contract is not related to
classes or students in the aviation degree programs at OU.

The report stated that officials at the Metropolitan State College of Denver (MSCD)
developed a proposal for a 4-year curriculum that grants a bachelor’s degree in air
traffic control. They state that the school informed the FAA of their proposal in May
2005, and did not receive a response. A review of our records indicates that the
FAA did not receive a proposal from MSCD describing their new bachelor’s
degree. Our records do indicate that a representative from MSCD contacted the
FAA on June 27, 2005 inquiring about the AT-CTI program. That message was
returned. Additional contact was made by MSCD on August 15, 2005, with a
request for information. An e-mail message was sent to MSCD on August 17,
2005, that included the Statement of Work and evaluation criteria used to expand
the current AT-CTI Program and a list of the teaching objectives required of all the
AT-CTI colleges.

The FAA is committed to further training improvements, but recognizes there
will always be a need for training programs at the FAA Academy to insure
consistency across all controller applicants.




Appendix. Management Comments
                                                                                                                      29


OIG Recommendations:

Recommendation 1. Identify specific coursework taught at the FAA Academy as
part of new controller training that is currently provided or could be provided by
colleges and universities.

Response: Concur. The FAA is committed to finding the most efficient process
possible to meet our goal of hiring and training 12,500 new controllers over the
next 10 years. The FAA will review the initial qualification curriculum taught at the
FAA Academy in order to determine if that training could be provided by colleges
and universities on a more cost-effective basis while ensuring the required level of
quality.

Recommendation 2. Determine if those courses could be discontinued as part of
FAA provided training and instead made a prerequisite to employment as an air
traffic controller with the FAA.3

Response: Concur. Preliminary indications are that changing the basic
qualifications for the air traffic profession is possible. Give the current state of ATC
automation and technology, and the development of NGATS, the FAA is reviewing
the existing qualifications to determine whether changes are required.

Recommendation 3. Report the results of that determination to the Secretary,
Congress, and the Office of Management and Budget as part of the next update to
the Agency’s Controller Workforce Plan, which is due at the beginning of the FY
2007 appropriations cycle.

Response: Concur. The next update to the Agency’s Controller Workforce Plan is
due to Congress in December 2005 and is nearing completion. However,
given the time required to complete the necessary staff work, the FAA will report
our findings in the December 2006 Controller Workforce Plan, or sooner if
complete.




3
    As a general practice, airlines hire pilots from a variety of sources with both civilian and military backgrounds. All
    newly hired pilots are required to undergo basic training regardless of experience level. The FAA correlates that this
    practice is also prevalent in training air traffic controllers.


Appendix. Management Comments
